  Audit of Grants Management and
Expenditures on Selected NSF Awards
  at the University of South Dakota
       Vermillion, South Dakota




      National Science Foundation
      Office of Inspector General


             March 9, 2005
             OIG 05-1-004
                            TABLE OF CONTENTS


                                                                          Page

EXECUTIVE SUMMARY                                                          i


INTRODUCTION

      Background                                                           1

      Objective, Scope, and Methodology                                    1

FINDINGS AND RECOMMENDATIONS

      1. USD Needs to Improve the Annual Reporting Process and
         Management of Subawards and Subcontracts                          3

      2. Unallowable Costs Claimed                                        13


APPENDICES

      Questioned Costs Schedule                                           20

      Auditee Response                                                    21

                                  ACRONYMS


Council grant   South Dakota Science and Technology Council
DGA             NSF Division of Grants and Agreements
DSU             Dakota State University
EPSCoR          Experimental Program to Stimulate Competitive Research
F&A             Facilities and Administrative
HHS             U.S. Department of Health and Human Services
NSF             U. S. National Science Foundation
PFI grant       Statewide Partnership to Support Technology Innovation and
                Entrepreneurship in South Dakota
Rite Link grant Development and Evaluation of a Model Information Technology
                Training and Education Program for Rural Communities
OMB             U.S. Office of Management and Budget
SOW             Statement of Work
USD             University of South Dakota
VP              Vice President
                            EXECUTIVE SUMMARY

The Office of Inspector General (OIG) audited selected National Science Foundation
(NSF) grants awarded to the University of South Dakota (USD). The objectives of the
audit were to evaluate (1) USD's overall administration of NSF grant funds in accordance
with award terms and conditions and (2) the allocability, allowability, and reasonableness
of cost sharing and costs charged to three NSF grants.

USD’s grants program has grown significantly over the last five years, doubling from just
over $12 million in FY 1998 to over $25 million in FY 2003. Our audit found that USD
adequately accounts for the direct costs charged to NSF grants in most respects.
However, USD did not have a full time research director overseeing the Office of
Research and resources devoted to grants administration did not sufficiently keep pace
with the research growth. Specifically, the VP of the Office of Research and his
Associate Dean both had direct research grant duties in addition to their overall grant
administration duties. In addition, USD did not have an adequate understanding of its
indirect cost rate structure and did not have a formalized system in place to determine
which costs are direct or indirect. As a result, USD filed late and sometimes inaccurate
annual reports, inadequately managed some subawards and subcontracts, and charged
unallowable costs and cost sharing to NSF awards. Specifically, we questioned costs of
$142,593 and cited an additional $53,875 as cost sharing at risk.

In addition to recovering the questioned costs and addressing the cost sharing at risk, our
recommendations include that USD assign responsibility of overseeing grant
administration to an individual that is independent of the research, who will assess
current staffing levels to ensure these levels are adequate to administer a growing
research program. USD also needs to develop policies and procedures that ensure grant
problems are made known to sponsoring Federal agencies, annual reports are accurate
and submitted timely, subawards and subcontracts are managed in accordance with
Federal guidelines, only allowable costs are charged to NSF awards, and a system is put
in place to determine which costs are charged directly or indirectly.

During the audit, USD took steps to correct some of these concerns. Also, based on this
audit NSF declined to exercise option years four and five on one of the grants, allowing
for $620,020 of NSF funds to be redirected to other programs in the Directorate for
Computer and Information Science and Engineering.




                                             i
Summary of Auditee's Response

USD generally agreed with the findings relating to late annual reporting and management
of subawards. In addition, USD revised its policy to no longer claim cost sharing for
personnel that worked in the Office of Research. However, USD disagreed that it
submitted an inaccurate annual report, did not notify NSF of problems on a grant, and
disputed most of the questioned costs and cost sharing. We summarized USD’s response
after each applicable recommendation and included the response in its entirety in
Appendix B.

Summary of Auditors' Comments

We agree with and commend the actions USD has or plans to take addressing late annual
reporting and management of subawards. However, we reaffirm our recommendations
regarding the accuracy of annual reporting, notification of grant problems with NSF, and
the questioned costs and cost sharing. The information provided by USD did not
demonstrate that USD accurately reported results for the grant in the annual report,
adequately notified NSF of grant difficulties, or understood its indirect cost rate structure,
which resulted in the questioned costs and cost sharing. Following our summary of
USD’s responses, we have provided detailed comments explaining our concerns.




                                              ii
BACKGROUND

Founded in 1862, the University of South Dakota (USD) is located in Vermillion with
additional Medical School campuses in Sioux Falls and Rapid City. USD is part of the State
of South Dakota reporting entity for purposes of the Single Audit Act of 1996. As the
University’s largest Federal sponsor, the Department of Health and Human Services (HHS)
is the cognizant Federal agency. HHS has currently set USD's predetermined indirect rate for
sponsored research at 40.5 percent, effective to June 30, 2006.

USD has had notable success in obtaining Federal grants as evidenced by its 100 percent
increase in Federal funds expended in the last 5 years, from just over $12 million in FY 1998 to
over $25 million in FY 2003.1 Only HHS and the Department of Education provide more
Federal funds to USD than NSF. As of June 30, 2003, USD had 12 active NSF grants totaling
over $5.7 million.

Coordination and overall administration of research efforts at USD are assigned to the Office of
Research, which is comprised of three professionals and two administrative staff people. A Vice
President (VP), who is also the Dean of Graduate Education, heads the office,2 as well as
working directly on some research grants. Two associate deans assist the VP. One associate
dean is devoted solely to the USD Medical School in Sioux Falls and the other associate dean
works at the USD main campus dividing his time between direct work on grants and Associate
Dean duties. A Sponsored Programs Coordinator and a secretary complete the Office of
Research staff. Two additional people dedicated within the University's accounting office
account for grant funds.

OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to evaluate (1) USD's administration of NSF grant funds in
accordance with award terms and conditions and (2) the allocability, allowability, and
reasonableness of cost sharing and costs charged to three NSF awards. The following chart
contains the relevant information on these awards.




1
 Federal funds include direct Federal funds, Federal pass-though funds, and Federal financial aid.
2
 The VP, who heads the Office of Research, dedicates 45 percent of his time to the duties of this position, 50
percent as the Dean of Graduate Education, and 5 percent as the USD EPSCoR representative. He has held these
positions since 1998.




                                                        1
    NSF Award                    Grant Title                       Grant Period            Award
                                                                                           Amount
EPS-98719553        South Dakota Science and
                                                                7/1/1998 - 6/30/2003       $297,168
                    Technology Council (Council grant)
EHR-0125385         Statewide Partnership to Support                                       $598,247
                    Technology Innovation and                                              (plus cost
                                                               1/1/2002 - 12/31/2004
                    Entrepreneurship in South Dakota                                       sharing of
                    (PFI grant)                                                             $62,547)
EIA-02960914        Development and Evaluation of a
                    Model Information Technology
                                                                9/1/2000 - 8/31/2003      $1,079,852
                    Training and Education Program for
                    Rural Communities (Rite Link grant)

In evaluating the adequacy of USD’s administration of NSF grants, we reviewed applicable
Federal and NSF policy and procedures, NSF award jackets, and USD accounting data. We also
interviewed appropriate HHS, USD, and NSF officials. We reviewed the expenditures reflected
in USD's accounting records and financial statements and performed detailed testing of those
costs incurred specifically on the three NSF grants noted and extended our review of financial
transactions to other NSF funded projects as deemed necessary.5 We made two site visits6 to
USD’s main campus in Vermillion, South Dakota, and interviewed key personnel to gain an
understanding of USD’s management controls.

In addition to audit work performed at USD, we conducted audit work at Dakota State University
(DSU) because one of the audited grants, the Rite Link grant, was originally awarded to DSU
under award EIA-0086076. NSF and DSU agreed to transfer the grant, effective September
2001, when the PI moved to USD in July of that year. We interviewed DSU personnel,
including the Co-PI who worked on a major portion of the Rite Link grant. We will be issuing a
separate report specifically detailing the result of our audit work at DSU.

We conducted our audit in accordance with the Comptroller General’s Government Audit
Standards and included such tests of accounting records and other auditing procedures, as we
considered necessary, to fully address the audit objectives.




3
  The original period of performance for this award was from 7/1/1998 to 6/30/2000. A no-cost extension was
granted on 5/15/01, which extended the award two additional years: 6/30/2001 to 6/30/2003.
4
  This grant was originally awarded to Dakota State University under grant EIA-0086076 for $1,049,852, with
options for increasing the award by $320,014 in FY 2003 and by $300,006 in FY 2004. The award was transferred
to USD on September 1, 2001 in conjunction with the transfer of the PI from DSU to USD under new grant number
EIA-0296091. An amendment was signed on 6/13/2002 increasing the award by $30,000. The PI officially
transferred to USD on July 1, 2001.
5
  USD had 9 other active NSF awards as follows: EPS-0082978, DBI-0097536, DUE-0123002, DGE-0124950,
EPS-0126795, CHE-0138951, SES-0139431, EAR-0208247, and DBI-0216473.
6
  Our sites visits to USD were during Feb/Mar 2003 and Sep/Oct 2003.

                                                  2
                      FINDINGS AND RECOMMENDATIONS
1. USD Needs to Improve its Annual Reporting Process and Management of Subawards
   and Subcontracts

NSF and Federal grant requirements require grantees to keep their sponsoring agencies informed
about the status of their research projects. In particular, grantees need to submit periodic
progress reports and to notify the Federal awarding agency in the case of problems, delays, or
adverse conditions, which significantly affect its ability to fulfill the grant objectives.
Additionally, a grantee must monitor work performed and billings submitted by subawardees and
subcontractors.

However, our audit found:
  • Instances of inaccurate, untimely, and missing annual reports for nine of USD’s 12 active
     awards from NSF; and
  • On two NSF grants, subaward agreements and subcontracts were not signed, until after
     work had begun and contained unclear statements of work. Also, the subawardees and
     subcontractors did not submit 10 of the 18 required progress reports.

These deficiencies occurred because the VP and the Associate Dean in the Office of Research
were overextended and could not adequately oversee their grants or the USD program overall.
As a result without timely and accurate information from USD, NSF was not aware and therefore
not able to timely address the significant difficulties USD was experiencing on the Rite Link
grant. Partly based on information provided by our office, NSF declined to fund option years
four and five of that grant, amounting to about $620,000. Also, without active oversight,
subawardees and subcontractors may not have met the grant objectives, may have overcharged
for costs incurred, or delayed project completion.

Inaccurate and Untimely Annual Reports

The NSF Grant General Conditions specify an awardee’s responsibilities and requirements
related to annual reporting. Specifically, awardees are required to file annual reports informing
NSF of progress in meeting award research goals. In addition, OMB Circular A-110, Uniform
Administrative Requirements for Grants and Other Agreements with Institutions of Higher
Education, Hospitals, and Other Nonprofit Organizations, requires a grantee to notify the
Federal awarding agency in the case of problems, delays, or adverse conditions, which materially
impair the grantee’s ability to meet the objectives of the award.

However, USD often submitted untimely annual reports. Additionally, for one grant, USD did
not notify the NSF program officer of problems that significantly decreased the likelihood of
successful completion of the award and submitted an inaccurate annual report. Each of these
issues is discussed below.




                                            3
      Late Submission of Annual Reports

      NSF Grant General Conditions, 15c Annual Project Reporting Requirements – “annual
      project reports shall be submitted at least three months prior to the end of the current budget
      period.” NSF relies on annual reports to stay informed of grantee progress in meeting award
      goals and to quickly address problems and issues that may arise. Accordingly, it is important
      that the reports be timely and fully disclose the status of the project.

      However, USD did not timely submit 13 of 18 annual reports for 9 of 12 active awards. The
      numbers of months the reports were overdue ranged from 1 to 47 months. Another 2 annual
      reports were not submitted at all. We observed that grants fully funded up front were late in
      reporting while those with incremental funding reported timely. The table below shows the
      active awards as of June 2003 and the dates that the related annual reports were filed:7

                                           Annual Progress Reports
                       Award       Award Expiration Report           Date Report
     NSF Award        Start Date        Date       Due Date           Submitted              Months Late

    Council Grant      Jul-98           Jun-03         Apr-99        03/05/2003                  47
    SES-9876527        Apr-99           Mar-03         Jan-02        03/19/2002                   3
                                                       Jan-01        04/25/2001                   4
                                                       Jan-00        04/21/2000                   4
    EPS-0082978        Dec-00           Nov-03         Sep-02        05/06/2003                   8
                                                       Sep-01        07/02/2002                  10
    DBI-0097536        May-01           Apr-04         Feb-00        02/14/2003                On-time
                                                       Feb-01        01/31/2003                On-time
                                                       Feb-02        02/01/2002                On-time
    DUE-0123002        Jan-02           Dec-05         Oct-02        09/26/2003                  12
     PFI Grant         Jan-02           Dec-04         Oct-02        01/14/2003                   3
    EPS-0126795        Nov-01           Oct-03         Aug-02        07/30/2002                On-time
    CHE-0138951        Apr-02           Mar-04         Jan-03        12/31/2002                On-time
                                                                 No report filed as of
    SES-0139431        Mar-02           Feb-05         Dec-02         Dec 2003                    12
    EAR-0208247        Aug-02           Jul-04         May-03        06/08/2003                    1
                                                                 No report filed as of
     DBI-0216473       Jun-02          May-05          Mar-03         Dec 2003                     9
    Rite Link Grant    Sep-01          Aug-03          Jun-03        07/15/2003                    1
                                                       Jun-02        09/04/2002                    3
                                                                                         18 Reports submitted,
        Totals                                                                              13 late reports




7
 USD had not sent NSF two annual reports as of June 2003 and we confirmed that the reports had not been sent as
of December 2003.

                                                   4
    Inaccurate Annual Reporting on the Rite Link Grant

    Because of concerns communicated to us by NSF program personnel, we reviewed the Rite
    Link grant annual report for the period September 2001 to September 2002 for accuracy.
    Our review found that USD overstated the level of effort staff contributed to the project and
    the extent of technical progress and accomplishments that had been achieved. The report
    also understated the difficulties the project faced in meeting its intended objectives.
    Specifically:

    •    The annual report identified 34 individuals as each having contributed more than 160
         hours on the grant during the year. However, we found that seven of them did no work
         on the grant and an additional seven worked far fewer than the 160 hours reported by
         USD. Also, four people who worked on the grant during the reporting period were not
         noted on the annual report.8 The PI stated DSU personnel provided the labor effort
         information but the PI never checked on its accuracy.

    •    The report stated, “The project personnel have plans to expand outreach to North
         Dakota, Nebraska, Arizona, and other rural states in year 3.” Although the PI told us
         that the project was discussed in a general sense during some meetings with people from
         other states, the Co-PI and the Director of the Business Education Institute at DSU
         responsible for developing and conducting the training said there was never a realistic
         plan to “outreach” the training program to other states. After all, they reasoned, the need
         for distance Information Technology (IT) workers had significantly decreased. In
         addition, a critical part of the training was the use of an interactive video network that
         had been set-up throughout South Dakota but was not available to other states.

    •    The report claimed, “The primary contribution of the project to date has been its impact
         on rural economic development.” However, based on information from the Co-PI, the
         PI, and other key people involved in the project, no trainees obtained distance IT
         positions and the class of second year trainees was less than half the size of the first year
         group.

    •    USD also reported that “One company XXXXXXXXXX…has not been able to employ as
         many participants as originally anticipated” and “Two of the original business partners
         are currently not hiring and the third is hiring very few.” These statements incorrectly
         give the perception that at least some of the trainees were getting jobs, when in fact, only
         one trainee was hired by any of the business partners and the position for this individual
         was not a distance IT position for which he had been trained.

    The PI acknowledged that he did not adequately verify the facts he included in the annual
    report to NSF. Further, he did not have the Co-PI review the annual report, although the Co-
    PI oversaw the IT training subaward, which represented $400,000 or 50 percent of the
    $790,000 award total.
8
  This finding is an issue of misstating the effort expended on the grant as reported in the annual report and does not
involve labor costs claimed as expenses for the NSF award.

                                                      5
    Inadequate Notification of Problems on the Rite Link Grant

    The listed goal of the Rite Link Grant was to “enable residents in remote rural communities
    to participate in the new information economy.” It was believed there was a significant
    shortage of IT workers, therefore, the award was primarily to provide IT training to allow
    individuals located in rural areas to help address this perceived shortage.

    However, shortly after the award was made, the IT job market radically changed, as many IT
    companies failed and no longer needed workers. Although a training module was developed
    and over 100 people were trained, not a single trainee received a distance IT job9 offer,
    although the PI told us that one trainee did eventually obtain an IT related position. Also, a
    key factor in USD's grant proposal was that the PI had established three business partners to
    assist in developing the training and, presumably, hire some of the trainees. However, we
    found very little business partner involvement and, except for the one person mentioned
    above, none of the business partners hired any of the NSF funded trainees.

    Annual Reporting Important Part of Grants Management

    NSF relies on annual reports to stay aware of grant progress as well as any grant problems.
    When annual reports are late and/or inaccurate, NSF’s ability to make timely and effective
    program and funding decisions is impeded. For example, the initial NSF program officer on
    the Rite Link grant told us that if the PI had properly informed NSF of the difficulties on this
    grant, the project objectives or scope may have been changed to allow for better use of the
    funds or the funds could have been redirected to a more viable project. As it was, NSF
    decided, partly as a result of information sharing between the OIG and responsible NSF
    program office, to decline funding of the award's remaining two option years, allowing NSF
    to redirect the remaining $620,02010 of unspent funds to other NSF projects.

    The responsible NSF program officers were not aware of the lack of business partner
    involvement or trainee hiring until we brought it to their attention. The PI admitted
    disappointment with the outcome of the Rite Link project and that he should have kept NSF
    better informed of the difficulties, but he, as well as others involved in the project, hoped that
    the IT downturn was temporary and related positions would return, allowing the grant to be
    successful.




9
  Distance IT jobs are positions with non-local IT firms in which the employee stays in South Dakota and works
from their home computer or from a nearby center.
10
   The PI was officially notified of NSF’s decision not to fund the last two years of the grant on May 16, 2003.

                                                     6
Subawards and Subcontracts not Adequately Managed

Federal grant regulations require primary awardees to oversee and monitor award funds passed
to subrecipients and subcontractors.11 Specifically, OMB Circular A-110, states, “Recipients are
responsible for managing and monitoring each … subaward supported by the award,” and OMB
Circular A-133 provides specific guidance to award recipients for monitoring their subrecipients.
OMB Circular A-110 also contains the requirements of primary awardees for the management of
subcontracts.12 Important elements of an effective subaward and subcontract oversight program
include formal agreements defining work expectations and completion dates and reviews of
supporting documentation as a basis for subaward and subcontract payments. However, USD
lacked such a program, although subawards and subcontracts represented over 50 percent of
award expenditures on the Rite Link and PFI grants.13 Specifically our review found that all five
subawards and five subcontracts14 made on these grants were formalized well past the start of
performance, a subcontract with an unclear statement of work (SOW), invoices on a subcontract
paid without adequate supporting documentation, a subcontractor used as a conduit to pass funds
to another organization, and progress reports not received from both subrecipients and
subcontractors.

The following table lists, by applicable award, the subawards and subcontracts we reviewed and
the concerns identified with each:




11
   OMB guidelines for subaward monitoring are delineated in OMB Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations - Appendix B: March 2001 Compliance Supplement section M.
Subrecipient Monitoring. See also, OMB Circular A-110, section .51(a) Reports and Records - Monitoring and
reporting program performance.
12
   OMB Circular A-110, sections .41 through .48 Procurement standards, requires that solicitations for goods and
services provide for a clear and accurate description what is to be performed under the procurement.
13
   The same person was PI on both awards.
14
   Includes consultant agreements, which were procured under Letters of Agreement (LOA).

                                                    7
                     Review of Subawards and Subcontracts on Rite Link and PFI Grants
                                                   Days work done
                                                       before
          NSF        Subawards and     Award                                    Reports:
                                                     agreement                                             Other Issues
         Award        Subcontracts     Amount          signed
                                                                     Required          Missing
        Rite Link                                                                                  SOW – did not specify report
                      Subcontract        $11,000       40 days           1
          grant                                                                                    content or due date

                       Subaward          400,360      115 days           2                 1

                      Subcontract         36,128      111 days           2
                                                                                                   SOW vague, invoices paid with
                      Subcontract         32,335      139 days           1                 1       out adequate supporting
                                                                                                                  15
                                                                                                   documentation
        Rite Link
                                        $479,823   Avg. 101 days         6                 2
        Subtotal

                       Subaward
         PFI grant                       $16,513       21 days           3                 2

                       Subaward
                                          17,558       24 days           3                 2
                       Subaward
                                          20,962       39 days           3                 2
                       Subaward
                                          17,513       85 days           3                 2

                      Subcontract
                                          44,237       28 days

                      Subcontract            470       20 days

      PFI Subtotal                      $117,253    Avg. 36 days         12                8

       TOTALS                         $597,076 Avg. 62 days             18                 10



            Work begun before agreements formalized: All subrecipients and subcontractors
            began work before formal agreements were signed. The subrecipient agreements and
            subcontracts were not formalized until 20 to 139 days after work began, with the average
            being 62 days. By not formalizing until after work begins, USD risks misunderstandings
            with the subawardee or subcontractor as to the terms and conditions for how and on what
            grant funds can properly be expended.

            Unclear Statements of Work: The SOWs on two of the four Rite Link subcontracts
            were vague in defining work requirements and expected due dates. As a result, it was
            difficult to determine what NSF got for the funds expended on the larger of these two
            subcontracts. Although, the PI admitted disappointment with the performance of the
            subcontractor, the subcontractor claimed that it was not provided adequate direction on
            work expectations from the PI. Additionally, the PI used this subcontractor to pass



15
     $12,000 under this subaward was passed directly to the Rite Team Association at the direction of the PI


                                                             8
         $12,000 directly to the Rite Team Association16 to obtain a marketing plan, even though
         this was not specified in the work requirements. Furthermore, an adequate marketing
         plan was not delivered and as of November 2003 almost the entire amount remained
         unspent on the books of the association.

         Outstanding reports: Subawardees and subcontractors did not provide 10 of 18
         progress and final reports required under the Rite Link and PFI grants. For example, for
         the four subawards under the PFI grant, eight of the twelve reports were not submitted.
         Nevertheless, USD paid all requests for reimbursement on the subawards with no
         indication as to why the deliverable requirements were not met or enforced.

Without active USD oversight, subawardees and subcontractors could incur costs not in line with
grant objectives, overcharge for costs incurred, and/or delay project completion. For example,
on the RITE Link subcontract indicated above, the PI was disappointed with the support
provided by a subcontractor, but had little recourse because the SOW was unclear.

Growth in Grant Workload Outpaced Resources For Grants Administration

The annual reporting and subaward/subcontract issues noted above occurred because staffing at
USD did not keep pace with the significant growth in USD’s Federal grants program and USD
lacked a full time research director. Specifically, the primary function of the Office of Research
at USD is overseeing USD’s grants program and assisting faculty in obtaining, administering,
and accounting for research grants. USD’s federal research program has experienced significant
growth over the last 5 years, increasing Federal funds expended from over $12 million in
FY 1998 to over $25 million in FY 2003. However, both the VP of the Office of Research and
the Associate Dean had direct research responsibilities, are board members of outside
organizations, and traveled extensively limiting their ability to oversee USD’s growing grants
program. The USD President told us that USD needs a full time research director, but its
establishment has reportedly been delayed by the limited availability of funding. In any event,
NSF Grant Conditions and the OMB Circulars require institutions to provide grant oversight,
making it imperative that personnel assigned to the grant have sufficient availability to oversee
Federal grants in its charge. Additional resources are therefore needed at USD, including the
assignment of a research director who can devote sufficient time to managing grants
administration.

         Office of Research Staff Overextended

         The VP and the Associate Dean, with support from the Sponsored Programs Coordinator,
         share the responsibility for overseeing the overall administrative management of USD’s
         grants program. However, neither the VP nor Associate Dean could adequately assist in
         this effort because they had many other responsibilities. For example, the VP was also
         the Dean of Graduate Education, PI on two NSF awards, Co-PI on four other awards, and


16
  This non-profit entity consists of Rite Link grant first year trainees. The trainees formed this association to pool
their resources in hopes of getting small consulting jobs after none of them received distance IT positions. The
amount remains on the books of the association after the firm they contracted with did not deliver an adequate plan.

                                                      9
         a sitting member on four boards.17 Similarly, the Associate Dean’s time was significantly
         over-committed as well. Specifically, he served as the acting VP for the Office of
         Research from March 2002 to November 2002,18 which was in addition to carrying out
         his existing responsibilities, which alone added up to 150 percent of the Associate Dean’s
         available time.19 In addition, both individuals traveled a great deal during FY 2003.
         Specifically the VP was on travel over 60 days and the Associate Dean over 70 days,
         further limiting their availability for grant oversight and administration. This lack of
         adequate time and resources led to several of the issues we found during the audit, for
         example the VP submitted the first annual report on the Council grant almost 4 years late
         and the Associate Dean, who was the PI on the Rite Link grant, did not notify NSF of
         problems with the grant, submitted an inaccurate and late annual report, and did not
         adequately manage the subawards and subcontracts made under this grant.

         The Sponsored Programs Coordinator reminded all PI’s of due dates for final grant
         reports, but there was no system in place to ensure annual reports were prepared and
         submitted timely or accurately. We were told varying reasons why annual reporting had
         been late but of note, one PI stated he had just forgotten and would have benefited from a
         reminder.




17
   The job description of the VP of the Office of Research showed his time divided as follows: VP of the Office of
Research (45 percent), Dean of Graduate Education (50 percent), and EPSCoR Representative (5 percent). He was
PI on the Council Grant and on NSF award EPS-0126795, and Co-PI on four other awards. The boards he sits on
are as follows: The EPSCoR Foundation, American Chemical Society, South Dakota Health Research Foundation,
and South Dakota Health Technologies Institute.
18
   The President of the USD took time off to run for Governor of South Dakota, and the VP of the Office of
Research assumed temporarily the full-time responsibilities for the VP of Academic Affairs from March 2002
through November 2002.
19
   The Associate Dean’s indirect duties were as follows: maintain contact with funding agencies, assist faculty and
staff about funding opportunities, write successful research proposals (34 percent); develop working relationships
and build partnerships with local business leaders (33 percent); and, manage the South Dakota Health Technologies,
Inc. (33 percent). It should be noted that this last function was reassigned as of 10/1/2003. However, he was unable
to fully perform these functions because at the same time, he was working 50 percent of his time directly on two
NSF awards (as PI he directly charged 40 percent of his time to the Rite Link grant and 10 percent to the PFI grant).
Lastly, he was a member of three boards as well: the Small Business High Technology Institute, the Genesis of
Innovation for South Dakota, and the RITE Team Association.

                                                    10
Recommendations:

1. We recommend that the Division Director, Division of Grants and Agreements in conjunction
with the Division Director, Division of Institution and Award Support ensure USD assign
responsibility for overseeing administration of Federal grants to a full time research director,
who is independent of the research and who will have sufficient time to focus on grant
administration duties. In addition, this person should ensure current staffing levels are adequate
to administer a growing research program.

       Auditee’s Response

       USD plans to separate the responsibilities for overseeing the Office of Research from the
       responsibilities for overseeing the Graduate School and change the level of effort of the
       VP for Research to a full-time position to oversee the Office of Research. In addition,
       USD is searching for a permanent VP for Research. The University also plans to review
       staffing levels for the Office of Research and will include any needed staff increase in the
       2006 budget process.

       Auditor’s Comments

       Once implemented, we believe USD’s actions addressing the staffing of research
       administration should adequately address the recommendation.

2. We recommend that the Division Director, Division of Grants and Agreements in conjunction
with the Division Director, Division of Institution and Award Support direct USD to institute
policies that ensure sponsoring agencies are notified in a timely manner of events that
significantly affect a project, and requirements for annual reporting and procurement and
monitoring of subawards are met.

       Auditee’s Response

       Regarding inadequate notification of problems on Rite Link grant, USD disagreed with
       our finding that it did not keep NSF adequately informed in a timely manner.
       Specifically, USD claimed that it informed NSF program personnel about the grant
       problems during a site visit in November 2002. Furthermore, USD claims the annual
       report “clearly informed NSF that the decline in IT economy during the project was
       having an adverse impact on the project.” USD further states that there were “four
       different NSF program managers assigned to the project during the time period discussed
       in the audit report.”

       Pertaining to the timeliness and accuracy of annual reports, the auditee agreed to improve
       timeliness of annual reports and the accuracy of hours reported in annual reports by
       providing its PIs with reminders 30 days prior to annual report due dates and to include a
       reminder to verify the number of hours each person worked. However, USD claimed the
       statements from the Rite Link annual reports were “taken out of context,” and therefore
       the audit report does not correctly represent the facts. They restate several sentences


                                            11
from the annual progress report and provide some additional information to explain how
the audit has taken quotes out of context. Specifically, USD raises the following
concerns:

   •   Regarding plans to expand the program to other states, USD states the program
       reached other states as evidenced by a conference held on September 29, 2002, in
       which representatives participated from North Dakota and Nebraska. Training
       could also reach other states, as evidenced by several “remote participants”
       successfully completing training over the Internet.

   •   Concerning the impact on rural economic development, USD believes that if the
       entire paragraph from the annual report were included in the report, their claim on
       impacting rural economic development would be clearly identified. Of note, the
       paragraph discusses the receptiveness of rural communities to the project’s
       objectives and the fact that over 700 hundred people attended two Rite Link
       community meetings and over 100 participated in the training.

   •   With respect to the lack of business partner involvement and hiring, USD also
       included the entire paragraph from the annual report to support its position that
       USD correctly represented that the grant was not meeting its objectives. The
       paragraph discussed how the downturn in the economy made the task of
       identifying business partners “much more difficult.” The annual progress report
       also states that the project team had met with several “large IT companies such as
       Microsoft and Time Warner/AOL to discuss the project” and claims these
       companies were very supportive of the concept, but were not hiring anyone.

USD also states that significant changes have been made to its subaward procedures such
as requiring “clear statements of work, definition of deliverables or milestones and
payment schedules tied to deliverables.” USD also informed us that the Rite Team
Association had ceased operations as of August 2004 and the Association planned to
return any remaining funds to the contributing rural communities.

Auditor’s Comments

Pertaining to inadequate notification of problems on Rite Link grant, we recognize that
NSF officials were made aware of some of the problems being experienced on the grant
during its site visit in November 2002, however these problems existed at the time the
annual report was prepared, which was prepared prior to the site visit. Based on
discussions with NSF program personnel and our review of the site visit report, we saw
no evidence that USD informed NSF during the site visit about the lack of business
partner involvement and the fact that the training did not result in hiring any people for IT
positions. USD does not explain why the annual report issued in September 2002, two
months prior to the site visit, did not convey the extent of the problems on the grant.
Prompt and accurate notification to NSF of grant problems in annual progress reports is
essential so NSF program officers have the opportunity to timely address these types of
problems.


                                     12
       In relation to the timeliness and accuracy of annual reports, the new procedure of
       reminding the PIs of impending due dates for annual reports along with the new
       procedure to verify the accuracy of its participants are positive steps that should address
       the problems of late annual reporting and misrepresenting the level of effort of
       participants on projects. However, regarding the accuracy of the Rite Link grant annual
       report, our interviews with the PI and the co-PI on the Rite Link grant support our
       position that the statements in the annual report were inaccurate. We believe our findings
       concerning the inaccurate annual report are still valid. Specifically:

              •   Regarding plans to expand the program to other states, we believe the
                  information about a conference which included out-of-state participants and a
                  few trainees taught via the Internet does not support that there was an official
                  plan to expand the program to other states. Also, during the audit the Co-PI at
                  DSU responsible for developing and conducting the training said there was
                  never a realistic plan to “outreach” the training program to other states.

              •   Concerning the impact on rural economic development, the grantee does not
                  explain how the project had an impact on rural economic development other
                  than quoting the entire paragraph from the annual report. We expected the
                  annual report to address the impact on rural economic development by stating
                  the grant effect on businesses hiring IT positions.

              •   Pertaining to the lack of business partner involvement and hiring, USD does
                  not explain how quoting the entire paragraph refutes our position that the
                  annual report exaggerates the involvement of the business partners and the
                  perception that trainees were being hired.

       The changes proposed by the USD regarding the subaward management procedures
       appear to address our recommendations. Also, because the Rite Team Association
       ceased operations as of August 2004 and did not have any unspent funds, we removed
       our recommendation regarding NSF following up on the unspent funds.

3. We recommend that the Division Director, Division of Grants and Agreements in conjunction
with the Division Director, Division of Institution and Award Support recognize USD as a high-
risk awardee under its risk management program and as part of this program consider an on-site
visit to ensure USD implements corrective actions to address our recommendations.

       Auditee’s Response

       USD believes it should not be categorized as a high-risk awardee because it either
       adequately addressed the recommendations cited in the report or it disagreed with the
       audit findings.




                                           13
Auditor’s Comments

As part of its post award monitoring process, NSF should ensure the USD actions have
been implemented and have corrected the findings disclosed in audit report. Until NSF
has made such a determination, we believe USD should be categorized as a high-risk
awardee.




                                   14
2. Unallowable Costs Claimed

   OMB Circular A-110 requires a grantee to have a documented system to identify whether costs
   are allowable, allocable, and reasonable in accordance with applicable cost principles.
   Specifically, the grantee should have a documented procedure in place to identify which
   functions are to be charged direct or indirect. Our audit found that USD adequately tracks,
   accounts, and maintains documentary support for direct costs charged to NSF grants except for
   one instance where it incorrectly charged $11,972 of augmented salaries to one NSF award.
   However, USD lacked an understanding of indirect costs and did not assign an individual the
   responsibility of determining whether a cost is direct or indirect. As a result USD
   inappropriately charged indirect costs totaling $130,620, as direct costs or cost sharing, on four
   different NSF awards20, thereby recovering twice for the same costs. Specifically, USD:

        •   Claimed the same salary costs twice, as both direct and indirect costs on Council grant;
        •   Claimed the same salary costs twice, both as indirect and as cost sharing on three NSF
            awards;
        •   Claimed proposal preparation costs incorrectly as direct costs on the Council grant; and
        •   Augmented faculty salaries with NSF grant funds without required NSF approval.

   Appendix A contains a schedule delineating the unallowable costs of $142,592, and costs sharing
   at risk of $53,875. Each finding is discussed separately below.

   Salary Costs Claimed Directly and Indirectly on the Council Grant

   OMB Circular A-21 requires that costs be charged consistently either directly to projects or
   indirectly as facilities and administrative (F&A) costs. USD did not consistently charge its
   project administrative costs as indirect costs and instead directly charged some of the same costs
   to NSF awards. In particular, USD incorrectly charged $105,125, which equates to half of the
   salary for the VP of the Office of Research (who is also the Dean of Graduate Education),
   directly to the Council grant for 14 months. USD included the salary and fringe benefits of the
   VP of the Office of Research as part of its F&A rates and therefore, these costs are not eligible to
   be charged directly to NSF awards. Although USD recovered the VP’s salary through indirect
   costs, USD proposed the VP’s salary as direct costs on an NSF grant. Furthermore, except for
   the 14 months when the VP was the PI on the Council grant; USD’s grants accounting office
   correctly charged his salary to indirect cost functions.

   VP Salary Incorrectly Claimed as Cost Sharing

   OMB specifies that unrecovered indirect costs can be claimed as cost sharing on Federal awards.
   However, USD recovered Office of Research expenses as part of indirect costs and claimed the
   same costs as cost sharing. Specifically, we found that a portion of the VP’s salary was claimed



   20
     We expanded our scope to look at all active NSF awards that had cost sharing requirements and found that a
   portion of the VP’s salary was also incorrectly claimed as cost sharing on 2 other awards, EPS-9977752 and EPS-
   0126795.

                                                      15
as cost sharing on 3 NSF awards: EPS-9977752 ($11,980) and EPS-0126795 ($24,897) and the
PFI grant ($28,978).21


Unallocable Proposal Preparation Costs Charged to the Council Grant

OMB Circular A-21 states that proposal preparation expenses should be charged as part of
indirect costs and therefore are reimbursable through the F&A rate. However, we found a
consultant’s fee of $7,000 to write a grant proposal22 and related travel expenses of $2,552
incorrectly charged as direct costs to the Council grant.

Unapproved Augmented Faculty Salaries on the PFI Grant

OMB Circular A-21, states that grant funds should not be used to increase the base salary of
faculty members unless the sponsoring agency approves, in writing, such augmented salaries.
We found that USD augmented the salaries of two faculty members using PFI grant funds. One
person was paid $5,000 and another $2,500 above their base salaries with PFI grant funds, as
evidenced by copies of the employment contracts for the two faculty members. According to the
NSF program officer for the grant, NSF had not given approval for augmented payments to
faculty members on this grant.

Inadequate Understanding of Indirect Cost Rate Structure and Federal Regulations Led to
Questioned Costs and Cost Sharing at Risk

During the audit we found that USD’s current predetermined rate was based on a proposal
developed in 1993 by a consulting firm. The initial negotiated predetermined rate agreement
expired in June 1999, and at that time HHS decreased the existing rate by one percent and
extended it through 2006 without USD providing a new indirect cost proposal. Partially because
USD relied on a consulting firm to compile the proposal, USD staff did not have an adequate
understanding of its F&A rate structure. For example, in 1993 one individual worked half time
as VP of the Office of Research, and a different person was the half time Dean of Graduate
Education, but both of these positions were included as part of the indirect costs pools.
However, USD was not aware of this and in 1998 when the VP of the Office of Research, who
was also the Dean of Graduate Education, proposed half of his salary as direct costs on the
Council grant, USD did not note the inconsistency nor did it revise its indirect cost rate structure
to reflect the direct charging of the VP salary to NSF awards. This lack of understanding also
directly led to the unallowable cost sharing and the costs sharing at risk.

The Manager of Accounting Services did not think USD needed a documented process for
keeping track of its actual indirect costs because of the predetermined rates in place. He added

21
   USD also claimed cost sharing on a portion of the salary of the Associate Dean of the Office of Research on the
PFI grant, however as this position did not exist at the time of the indirect cost proposal in 1993, we did not question
this salary. USD should be aware that because the Office of Research was established as an indirect function,
salaries of personnel assigned to this office, even those added since the cost proposal like the Associate Dean, are
technically not eligible for cost sharing on NSF awards.
22
   The proposal was for a NSF Math and Science Partnership grant.

                                                     16
that even if they wanted to track these costs they didn’t have the necessary staff. Nevertheless,
USD needs to have a documented system in place that defines which functions are indirect and
which are direct so that costs are not claimed twice on any NSF awards.

During the course of the audit we also found that Office of Research personnel, specifically the
VP and the Associate Dean, were either not sufficiently aware of Federal regulations or should
have better enforced them. For example proposal writing costs were incorrectly charged directly
to the Council grant because the Associate Dean, who was acting on behalf of the VP of the
Office of Research at the time, did not know that proposal writing costs are supposed to be
charged as indirect costs. Additionally, the salaries of two faculty members were augmented
with funds from an NSF grant without the required approval from NSF.

Recommendations:

4. We recommend that the Division Director, Division of Grants and Agreements in conjunction
with the Division Director, Division of Institution and Award Support direct that USD Office of
Research personnel improve its written procedures for determining the reasonableness,
allocability and allowability of costs in accordance with the provisions of the applicable Federal
cost principles, and in coordination with the HHS Division of Cost Allocation, document which
functions are overhead and which are direct and that this system be used when negotiating
USD’s next F&A rates. Additionally, USD needs to ensure that its personnel are adequately
trained in applying the applicable Federal cost principles.

       Auditee’s Response

       USD believes it has adequate procedures already in place “for determining the
       reasonableness, allocability and allowability of costs in accordance with the provisions of
       the Federal cost principles” for educational institutions. USD’s proposal routing system
       has processes in place to evaluate each proposal submitted for adherence to Federal cost
       principles. Further, USD states it is in the process of renegotiating its F&A rates with
       HHS, which will determine which functions are direct.

       Auditor’s Comments

       USD does have some procedures in place for determining adherence to the Federal cost
       principles, but these procedures did not prevent the charging of indirect salary costs
       directly on an NSF award, claiming of already recovered costs as cost sharing on three
       NSF awards, charging proposal preparation costs to an NSF award, and augmenting
       faculty salary with NSF grant funds. USD needs to ensure that its policies and
       procedures are in accordance with applicable Federal cost principles and that all
       personnel working on or administering Federal grants are following these policies and
       procedures.




                                            17
5. We recommend that the Division Director, Division of Grants and Agreements in conjunction
with the Division Director, Division of Institution and Award Support recover the unallowable
costs and cost sharing of $142,592.

       Auditee’s Response

       a. Questioned PI Salary of $105,125 on Council grant – The auditee disputes that it
          claimed the salary costs directly and indirectly on the Council grant. Specifically,
          USD lists several reasons why it was allowed to claim 50 percent of salary for the VP
          for the Office of Research:

          •   The indirect cost rate was based on the VP as a 50 percent position, thus the other
              50 percent could be claimed as direct costs on Federal awards.

          •   Regarding the indirect cost rate agreement between HHS and USD, HHS required
              prior approval only for changes to the accounting system. USD charging the VP
              directly on a Federal award was not an accounting change and HHS prior
              approval was not necessary.

          •   The support for USD’s research infrastructure increased from 1998 to the present
              and “at no time during this period, including the 14 months in question, was the
              research infrastructure allowed to fall below that upon which the indirect cost
              agreement was based.”

       b. Questioned proposal preparation and related travel costs of $13,516 – USD does not
          dispute the questioned costs of $9,905 related to paying a consultant for proposal
          preparation costs or the related travel costs of $3,611.

       c. Questioned cost sharing of $11,979 on award CPDI-9977752 - USD did not provide
          alternative cost sharing for this closed award because the OIG told them not to
          provide alternative cost sharing. .

       d. Augmented faculty salaries of $11,972 - USD does not dispute that it improperly
          augmented faculty members’ salary, but it requests that actions taken to ensure this
          does not happen in the future be taken into account during the audit resolution
          process.

       Auditor’s Comments

       a. Questioned PI Salary of $105,125 on Council grant – The comments forwarded by
          USD do not effectively refute the fact that USD claimed the salary costs both directly
          and indirectly on the Council grant. Specifically, the PI position included 50 percent
          of his time as the VP for the Office of Research and the other 50 percent of his time
          as the Dean of Graduate Education. USD has not recognized that both of these
          positions are recovered as part of the HHS approved indirect cost rates. Therefore,
          USD could not charge any of his salary directly to NSF awards during the 14 months


                                           18
          in question. The prior approval provision by HHS is not germane, as we are not
          questioning the indirect costs. In addition, USD claim that support for its research
          infrastructure increased over time is misleading. The actual support provided on
          individual research awards decreased over time because the amount of research grew
          significantly since 1998, without a proportional increase in the research infrastructure.

       b. Questioned proposal preparation and related travel costs of $13,516 - We concur with
           USD in its decision to reimburse NSF for the unallowable proposal preparation costs
           including the related travel costs.

       c. Questioned cost sharing of $11,979 on award EPS-9977752 – Our office recognizes
          that there was a misunderstanding regarding USD’s need to respond to this issue,
          however USD still needs to reimburse NSF for this questioned cost sharing because
          the claimed cost sharing was the salary of the VP who could not be claimed as cost
          sharing.

       d. Augmented faculty salaries of $11,972 – We concur with USD’s response that it
          improperly augmented faculty members’ salary.

5. We recommend that the Division Director, Division of Grants and Agreements in conjunction
with the Division Director, Division of Institution and Award Support require USD to provide
alternative plans to meet the $53,875 of cost sharing requirements on on-going NSF grants EHR-
0125385 (the PFI grant) and EPS-0126795.

       Auditee’s Response

       USD obtained a waiver from NSF for the costs sharing on EPS-0126795 and negotiated
       an alternative plan for the cost sharing on the PFI grant.

       Auditor’s Comments

       Once implemented, we believe USD’s actions addressing the cost sharing issue should
       adequately address the recommendation




                                           19
                                                                                                                          Appendix A

                  SCHEDULE OF QUESTIONED COSTS AND COST SHARING AT RISK

                                                  Questioned Direct                         Applicable Indirect   Total Questioned
                             Description
    NSF Award                                           Costs       Applicable Fringe             Costs                 Costs          Notes
                                                           QUESTIONED COSTS
EPS-9871955               7/1/98 - 6/30/03
(Council grant)              PI Salary                $   64,722        $  9,571              $       30,832          $   105,125        1
                            Consultant                $    7,000          N/a                 $        2,905          $     9,905        2
                         Associated Travel            $    2,552          N/a                 $        1,059          $     3,611        3
                               Total                  $   74,274        $  9,571              $       34,796          $   118,641

EPS-9977752             3/15/00 – 2/28/01
                      Cost Sharing - PI Salary        $    7,445        $    1,081            $        3,453          $    11,979        4

EHR-0125385             1/01/02 - 12/31/04
(PFI grant)             Augmented Salaries            $    7,500        $    1,021            $        3,451          $    11,972        5
            Total Questioned Costs                    $   89,219        $   11,673            $       41,700          $   142,592


                                                          AT RISK COST SHARING
EHR-0125385              1/01/02 - 12/31/04
(PFI grant)                 Co-PI Salary          $       17,723    $        2,902      $             8,353       $       28,978         6

EPS-0126795              11/15/01-10/31/04
                             PI Salary            $       14,768    $        2,952      $             7,177       $       24,897         7
                     Total Cost Sharing at Risk                                                                   $       53,875
       Notes
1. USD claimed half of the VP’s salary direct for 14 months (Jan - Jun 2001 @ $4,415.75 per month, and July 2001 - Feb 2002 @ $4,778.42
per month) even though his salary was recovered indirectly as part of the F&A rate. Applicable indirect rate was 41.5 percent
2. The consultant was paid $7,000 for writing a proposal for Math & Science Partnership grant. The applicable indirect rate was 40.5 percent.
3. The travel was for three people (two USD personnel and the consultant) to attend a Math and Science Partnership seminar to aid them in
writing the grant proposal.
4. USD claimed salary costs of the VP of the Office of Research as cost sharing even though his salary was already recovered indirectly.
Award expired 2/28/01.
5. Two faculty members were paid in excess of their base salaries. One member had an 11 month employment contract and was paid $2,500
in July 2002 and $2,500 in December 2002. The other faculty member had a nine-month contract and was paid $2,500 in December 2002.
6. The Co-PI is the VP of the Office of Research, but the VP’s salary cannot be claimed as cost sharing as his salary is already recovered
indirectly as part of the F&A rate.
7. The total proposed cost sharing on this award equals $128,374, $24,897 of which is salary costs for the VP. The salary costs are already
recovered indirectly and therefore could not be claimed as cost sharing.




                                                               20
